<html>
<title> - THE ADMINISTRATION'S EFFORTS TO PROCURE, STOCKPILE, AND DISTRIBUTE CRITICAL SUPPLIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    THE ADMINISTRATION'S EFFORTS TO
                        PROCURE, STOCKPILE, AND
                      DISTRIBUTE CRITICAL SUPPLIES

=======================================================================

                                HEARING

                               BEFORE THE

             SELECT SUBCOMMITTEE ON THE CORONAVIRUS CRISIS

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 2, 2020

                               __________

                           Serial No. 116-101

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                 Available on: http://www.govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-893 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                            
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky,
Harley Rouda, California             Michael Cloud, Texas
Ro Khanna, California                Bob Gibbs, Ohio
Kweisi Mfume, Maryland               Clay Higgins, Louisiana
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Chip Roy, Texas
Peter Welch, Vermont                 Carol D. Miller, West Virginia
Jackie Speier, California            Mark E. Green, Tennessee
Robin L. Kelly, Illinois             Kelly Armstrong, North Dakota
Mark DeSaulnier, California          W. Gregory Steube, Florida
Brenda L. Lawrence, Michigan         Fred Keller, Pennsylvania
Stacey E. Plaskett, Virgin Islands
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California

           David Hickton, Select Subcommittee Staff Director
             Russ Anello, Select Subcommittee Chief Counsel
                          Taylor Jones, Clerk

                      Contact Number: 202-225-5051

               Christopher Hixon, Minority Staff Director
                                 
                                 ------                                

             Select Subcommittee On The Coronavirus Crisis

               James E. Clyburn, South Carolina, Chairman
Maxine Waters, California            Steve Scalise, Louisiana, Ranking 
Carolyn B. Maloney, New York             Minority Member
Nydia M. Velazquez, New York         Jim Jordan, Ohio
Bill Foster, Illinois                Blaine Luetkemeyer, Missouri
Jamie Raskin, Maryland               Jackie Walorski, Indiana
Andy Kim, New Jersey                 Mark E. Green, Tennessee
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 2, 2020.....................................     1

                               Witnesses

Rear Admiral John Polowczyk, Supply Chain Stabilization Task 
  Force, Vice Director of Logistics, Joint Chiefs of Staff, 
  Department of Defense
Oral Statement...................................................     6

Admiral Brett P. Giroir, M.D., Assistant Secretary for Health, 
  Department of Health and Human Services
Oral Statement...................................................     8

The Honorable Kevin Fahey, Assistant Secretary of Defense for 
  Acquisition, Department of Defense
Oral Statement...................................................    10

Written opening statements and the written statements of the 
  witnesses are available on the U.S. House of Representatives 
  Document Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

Documents entered into the record during this hearing and 
  Questions for the Record (QFR's) are available at: 
  docs.house.gov.

  * Letter from DuPage County Health Department outlining 
  attempts to obtain PPE and testing supplies; submitted by Rep. 
  Foster.

  * Letter from the American Medical Association; submitted by 
  Chairman Clyburn.

  * Letter from the American College of Emergency Physicians; 
  submitted by Chairman Clyburn.

  * Letter from the National Nurses United; submitted by Chairman 
  Clyburn.

  * Letter from the American Association of Medical Colleges; 
  submitted by Chairman Clyburn.

  * Questions for the Record: to Rear Admiral Polowczyk at the 
  Department of Defense; submitted by Chairman Clyburn.

  * Questions for the Record: to Admiral Giroir at the Department 
  of Health and Human Services; submitted by Chairman Clyburn.


 
                    THE ADMINISTRATION'S EFFORTS TO
                        PROCURE, STOCKPILE, AND
                      DISTRIBUTE CRITICAL SUPPLIES

                              ----------                              


                         Thursday, July 2, 2020

                   House of Representatives
      Select Subcommittee on the Coronavirus Crisis
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 9:07 a.m., in 
room 2154, Rayburn House Office Building, Hon. James E. Clyburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Clyburn, Waters, Maloney, 
Velazquez, Foster, Raskin, Kim, Scalise, Jordan, Luetkemeyer, 
Walorski, and Green.
    Mr. Clyburn. Today, this committee will ask several simple 
questions. More than five months into the coronavirus outbreak, 
after nearly 130,000 Americans have died, why is our country 
still facing critical shortages in Personal Protective 
Equipment and testing supplies that we need to fight this 
virus? Why is it that the greatest Nation on Earth cannot get a 
63-cent mask to everyone who needs one? This committee has 
heard harrowing stories about shortages in critical supplies 
directly from frontline workers. We have heard from doctors and 
nurses who were forced to reuse protective masks designed to be 
worn just once. Some healthcare workers resorted to wearing 
garbage bags to protect themselves because their hospitals did 
not have enough gowns. That is a disgrace.
    We also heard about bus drivers and grocery clerks who lost 
their lives because they had to keep working, but were not 
given a mask or a pair of gloves to stay safe. And we heard 
from nursing home workers and janitors who feared they might be 
the next to die.
    Now, some in the Trump administration would have us believe 
that these shortages are a thing of the past. They rattle off 
statistics about the number of supplies delivered, the number 
of dollars spent and the number of flights in so-called Project 
Airbridge. Here are the facts: The White House's own internal 
data, just released a few weeks ago, shows we still face 
shortages of tens of millions of N95 masks and gowns, and those 
shortages may persist for months. Healthcare providers have 
confirmed this.
    On June 12, Kaiser Permanente reported, and I quote, ``Like 
all healthcare providers, we continue to experience shortages 
of PPE, including N95 masks.'' These shortages are getting 
worse as coronavirus infections skyrocket across the country, 
driving up prices and demand for PPE. Serious shortages have 
been reported in Texas and Florida. And the governor of 
Washington has identified, and I quote, ``widespread 
shortages'' in that state.
    As infections rise, testing labs around the country are 
also facing a surge of demand, many have issued dire warnings 
that they are running short of supplies which could cripple our 
Nation's ability to conduct coronavirus tests and slow the 
spread of this virus.
    I am alarmed that nearly half a year into this crisis, the 
administration still has not adequately addressed these supply 
shortages. The Federal response has been hobbled by at least 
three critical errors: First, the administration lacks a clear 
chain of command rather than rely on career professionals led 
by a single official, the President has appointed different 
officials, agencies and task forces, including one led by his 
son-in-law, Jared Kushner, to handle this problem. The result 
has been confusion, delays and wasted resources.
    Second, the White House has pressured agencies to favor 
certain companies. And the administration has often relied on 
inexperienced politically connected contractors. A company 
formed by President Trump's former deputy chief of staff was 
awarded a $3 million contract to provide respirator masks to 
the Navajo Nation. The company had been formed just 11 days 
earlier, and it has reportedly delivered the wrong type of 
masks.
    Third, rather than take responsibility for directly 
purchasing and distributing supplies used in the Defense 
Production Act and other legal authorities, the Trump 
administration has largely deferred to the private sector. This 
has forced states, cities, and even individual hospitals, and 
businesses to compete for scarce resources driving up prices.
    Today, Chairwoman Maloney transmitted to this subcommittee 
a startling memo that lays out just how ineffective this hands-
off approach is, including the administration's signature 
program, Project Airbridge. The memo shows the administration 
refused to take responsibility for determining which recipients 
would receive PPE or how much they could be charged. The memo 
also showed medical supply companies pleaded with the 
administration to provide more guidance, and to take a more 
active role in procurement. But according to one company, and I 
quote, ``Politics has gotten in the way of that,'' end of 
quote.
    Thank you, Chairwoman Maloney, for sharing the Oversight 
Committee's diligent work with us, and for entrusting this 
subcommittee to carry it forward. I can assure you that we 
intend to get to the bottom of this.
    As I have said before, the purpose of this committee's 
oversight is not to cast blame for past failures, but to make 
improvements to ensure future success. So today, our goal is to 
better understand why the administration has failed to meet our 
country's need for PPE and testing supplies, and to seek a 
commitment from the witnesses to take concrete steps to finally 
address these shortages.
    I now yield to the ranking member for his opening 
statement.
    Mr. Scalise. Thank you, Mr. Chairman. I also want to thank 
our three witnesses who are going to be testifying today.
    America's been through a lot in these past few months. 
We've seen the best in people, from our frontline workers who 
have risked their own lives to help the sick, to our doctors 
and nurses who have struggled as well, but continue to show up; 
the innovation from educators; small business owners who 
struggle but work to make payroll; researchers who are working 
tirelessly to find a cure.
    But I don't think enough credit has been given to the teams 
that the three of you represent and the work that you've done 
to help America respond to this crisis. We faced an 
unprecedented logistical challenge, a global pandemic that hit 
our shores while China was hoarding needed medical supplies as 
they were lying to the rest of the world.
    I had some experience with these kinds of challenges when 
we went through Hurricane Katrina. And while Hurricane Katrina 
hit a limited area, this pandemic hit this entire country and 
it hit the entire world all at the same time. So, as you can 
imagine, the incredible challenges that that brings with it 
when you're not just dealing with an isolated crisis, you're 
dealing with a global crisis, and you have to respond fast.
    The incredible work that your teams have done to ramp up 
production and distribution of PPE, as well as testing the 
equipment that's needed, getting facilities up and running, we 
owe it to the men and women of your teams a tremendous debt of 
gratitude, and please let them know how much our country 
appreciates the work that they did in these trying times.
    Mr. Chairman, as America gets ready to celebrate our 
Independence Day on the 4th of July, we also confront an 
important moment in the coronavirus pandemic. We've learned a 
lot, and those lessons have saved lives. As you know, my home 
state of Louisiana, and, specifically, the city of New Orleans, 
got hit early in this pandemic. New Orleans faced some of the 
earliest hospital capacity scares. The reason that economies 
were shut down was to flatten the curve and make sure hospital 
systems were not overwhelmed.
    In those darkest days when there was a concern about a 
shortage of ventilators, I want to personally thank Rear 
Admiral Polowczyk, because I remember speaking with you 
specifically, as well as with FEMA Director Gaynor, about the 
concerns our state was facing. My governor and I worked 
together and the administration responded. And y'all delivered 
those needed ventilators to us. I know you did the same for New 
York and other regions that were concerned that they would hit 
that shortage, and fortunately, we never did hit that shortage, 
thanks to your quick work. I remember that phone call was on a 
Sunday, and you were there and you delivered.
    So, I'm sorry--Mr. Polowczyk, so I appreciate what you did 
and what your team did to respond so quickly. So, please convey 
that thanks to them. It surely helped our state, it helped the 
city of New Orleans to be able to respond.
    I just want to point that out so that people know there was 
so much done behind the scenes by the administration to 
respond. Doctors learned how to safely treat patients without 
necessarily putting them on ventilators. Doctors are not 
intubating as aggressively as they used to. They are using a 
high flow of oxygen instead because they have learned that 
intubation can actually do damage to the lungs. They have 
learned how to keep healthcare workers safe with other 
treatments.
    While some still need ventilators, demand has dropped and 
patients are seeing better outcome. The use of simple blood 
thinners is saving lives because autopsies showed that patients 
were getting massive blood clots in the lungs. Steroids and 
cures, like Remdesivir, are showing tremendous progress. Even 
as we see a spike in cases in areas of the country, the death 
rate has actually dropped.
    We've also learned more about who is most vulnerable and 
how we can better protect those populations. For example, we 
know that the policy of prohibiting COVID positive patients 
from returning to nursing homes saved lives, in those 45 states 
where the Governors, Republican and Democrats, followed the 
guidelines, we saw dramatically lower death rates among seniors 
in nursing homes.
    Sadly, we also know that policies that mandated that COVID-
positive patients be returned to those nursing homes, even if 
the nursing homes weren't capable of properly taking care of 
them turned out to be a death sentence for many seniors. We 
still haven't gotten the answers that we deserve to get so we 
can learn more about that. And I, again, want to ask the 
majority if we could join together, not just some of us, but 
all of us, ask those five Governors who decided to go against 
the CMS guidelines, if they would share those answers with us 
and with the rest of the country, and most importantly, with 
the families of their victims who were still demanding answers. 
We're going to continue to press for those answers.
    The hard-learned lessons, including the lessons that we 
need to keep learning are underscored by the spike in cases in 
particular areas of the country. The virus continues to spread. 
It is not an even spread as we've seen. In fact, cases are 
dropping in many areas of the country. We've learned that this 
virus tends to spike in concentrated areas and it does so 
rapidly. And there's a lot that we can learn from applying 
those simple recognitions.
    What I would say to the young people of America is you've 
worked hard, in many cases, you had to homeschool, you had to 
deal remotely with the ending of your education, maybe not able 
to start your new career in the world as you were expecting, 
but as you're experiencing more freedom, that freedom comes 
with responsibility. We are seeing that spikes are primarily 
affecting young people. And we are learning a lot about young 
people; getting together in very crowded areas has actually 
expedited the spread. So, we just urge young people to avoid 
that spread. Learn from the things that we're learning. You 
surely don't want to be sharing it with your parents, and 
grandparents, and putting more people at risk.
    All Americans should follow the CDC guidelines that 
continue to get updated. Wear masks where it's possible. 
Maintain recommended social distancing. We know how important 
social distancing still is. We all need to do our part in 
stopping the spread.
    We also must recognize how much better prepared we are 
today. We are currently conducting over 500,000 tests. We have 
got a chart right back here that shows the dramatic increase 
this country has done responding to the shortage of tests that 
we saw back in March, where they were almost non-existent. You 
saw the President expedite, through Operation Warp Speed, to 
push more things, including the Defense Production Act to 
increase testing, to the point where today we're conducting 
over 600,000 tests a day.
    We still need to keep growing this number, but you can see 
that dramatic increase to see how the administration has 
continued to respond. Nobody's letting their foot off the gas, 
but it is important to notice how we've come together, even 
with China hoarding and lying to the world how we've picked up 
the pace and done more on our own.
    Mr. Chairman, while some states have experienced rapid 
spikes that we need to watch closely, all Americans need to 
know the following: One, there is not a single state in this 
country that has reached hospital capacity. That was the main 
barometer in what states were used to close their economies 
that continues to be the most important barometer to watch as 
we safely continue to reopen economies; No. 2, our doctors have 
better understanding about how to treat patients, and we have 
seen that from less use of ventilators, more use of therapies, 
like Remdesivir, which was showing great promise.
    No. 3, we know how to protect our most vulnerable 
populations, and we hope as most Governors followed the proper 
guidelines and saved thousands of lives that the other 
Governors would follow that lead.
    Four, we know that tremendous progress continues to be made 
on vaccines and therapies. We need to make sure to get 
government out of the way. It is shocking that this week, as we 
are pushing everybody, government, private sector, all people, 
to do more to try to find a cure and to slow the spread, that 
the majority party would bring a bill to the floor this week 
that, according to the Council of Economic Advisers, would 
actually make it harder to find cures for diseases.
    As we're pushing all of government to find a cure, the bill 
that was brought to the floor of the House this week, which 
many of us opposed, would actually, according to them, maybe 
bring 100 fewer drugs to market. We're trying to get more 
lifesaving drugs to marketing, not fewer. Hopefully that will 
not be the trend that continues.
    And finally, five, the role and responsibility of 
individual Americans to stop the spread is better understood 
and needs to continue to be followed.
    So Mr. Chairman, as America continues to move forward, 
hopefully schools will start reopening, businesses will 
continue to reopen, and we will continue to learn more about 
how to better protect ourselves as we live with this disease as 
we confront this disease and this challenge.
    I look forward to the discussion and I look forward to 
hearing from our witnesses. With that, I yield back.
    Mr. Clyburn. I thank the ranking member for his statement 
and for yielding back.
    We now would like to introduce our witnesses. Today the 
Select Subcommittee welcomes Rear Admiral John Polowczyk, the 
leader of FEMA's Supply Chain Stabilization Task Force and the 
Vice Director of the Logistics of the Joint Chiefs of Staff. We 
also welcome Admiral Brett Giroir, the Assistant Secretary for 
Health at the Department of Department of Health and Human 
Services. And we are pleased to have with us Assistant 
Secretary of Defense for Acquisition, Kevin Fahey.
    I want to thank all of the witnesses for being here today 
and I would like them to please stand so I may swear them in.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    You may be seated. Let the record show that the witnesses 
answered in the affirmative.
    Without objection, your written statements will be made a 
part of the record. Rear Admiral Polowczyk, you're recognized 
for five minutes for your opening statement.

    STATEMENT OF REAR ADMIRAL JOHN POLOWCZYK, SUPPLY CHAIN 
  STABILIZATION TASK FORCE, VICE DIRECTOR OF LOGISTICS, JOINT 
             CHIEFS OF STAFF, DEPARTMENT OF DEFENSE

    Mr. Polowczyk. Good morning, Chairman Clyburn, Ranking 
Member Scalise, and distinguished members of the committee. I 
am Rear Admiral John Polowczyk, Vice Director for Logistics and 
Joint Staff. Thank you for the opportunity to discuss the 
Federal response to the COVID pandemic and strategies for 
future planning.
    Let me start by offering my condolence to the families and 
friends who have lost loved ones to this pandemic. On a 
personal note, let me share that this pandemic hits close to 
home as it did for many Americans and for members of this 
committee. I have two family members working on the healthcare 
front lines. My sister is a nurse in Westchester, and my niece 
is a nurse in Long Island. Through daily communications, I'm 
very cognizant of the needs of healthcare workers and if they 
are being met.
    On March 19, I was asked to support the management of 
critical medical supplies needed to combat the pandemic. It was 
clear the global domain for critical medical supplies could not 
be met domestically as U.S.-based manufacturing was limited.
    Upon arrival from the Pentagon, I realized the Strategic 
National Stockpile could not address the Nation's requirements 
as the bulk of the stockpile was shipped to states, leaving 
essentially no direct Federal resources. Our goal since the 
beginning has been to provide medical supplies to where it's 
needed, when it's needed.
    We made a decision to leverage the strengths of both the 
government and private sector for a whole-of-America approach. 
Unlike a natural disaster such as a hurricane, the pandemic was 
different. The pandemic did not damage the strengths of the 
commercial medical supply chain. The supply chain's businesses 
were operational, the warehouses all intact, the trucks were 
all working, their employees luckily had experienced little 
effects from COVID.
    The supply chain and network that delivered to every 
hospital, nursing home, first responder in the country at speed 
was available to be leveraged in a public-private partnership. 
However, the domestic consumption was an array of supplies was 
far greater than usual and rapidly depleted supplies on hand 
led to a need to expedite shipments from, regrettably, 
overseas. This partnership is in line with how the Federal 
Government traditionally responds to disasters which are 
locally executed, state-managed, federally supported.
    With the shortage of PPE, acceleration of the commercial 
market was required because we could not wait for shipments of 
critical resources. Airbridge was designed to provide Federal 
support to medical supply chain and not supplant it. Airbridge 
is about speed for manufacturing sources to points of care. 
Supplies need not be aggregated in Federal warehouse, and then 
pass the state government warehouses, and then on to other 
municipalities, and finally to healthcare workers on the front 
lines. Airbridge and the public-private partnership provided 
speed from overseas sources to the frontline worker and limited 
the all of touches in the distribution process.
    On March 29 the first flight landed in New York with 
gloves, masks, and respirators. By April 30, the 100th flight, 
and essentially a month later, Project Airbridge had delivered 
into the United States nearly 800,000 N95 respirators, 825 
million gloves, 75 million surgical masks, over 11 million 
surgical gowns, 2 million thermometers, 650,000 face shields. 
The supplies I just listed would still have been at sea on 
April 30 and not available to our healthcare workers if normal 
shipping were used.
    The commercial supply chain was both geographically 
orientated, based on CDC outbreak data and further refined by 
point of care prioritization, public hospitals first, then VA 
hospitals, then private hospitals and nursing homes.
    A Federal FEMA resource prioritization sale was stood up to 
manage these priorities. This FEMA sale directed supplies to 
COVID hotspots such as New York, New Jersey, Chicago, New 
Orleans, Detroit. This was a balance across the country feeding 
hotspots, but also providing supplies to those who do not have 
major COVID outbreaks.
    Unfortunately, we were managing shortages nationwide. Using 
data-driven decisions for allocation ensures the right 
quantities of these critical medical supplies get to the right 
place at the right time. In an unprecedented fashion, we 
consolidated businesses from data from the six major medical 
distributors into the cloud of FEMA creating a data lake of 
information. For the first time, using a supply chain tool from 
DOD, we were able to see the healthcare supply chain from 
supplier to point of care. By the first week of April, we could 
see inventory held by competing companies for distribution in 
the U.S., and how the supply chain was filling orders from 
hospitals and nursing homes.
    We could see material coming into the commercial network 
from overseas and for them further distribution down to the 
actual point of care in any county across the country. This 
gave FEMA, the Task Force, unprecedented visibility into where 
supplies went and the speed of delivery.
    FEMA entered into legal agreements with the commercial 
supply chain. These agreements allowed the aggregation and use 
of businesses system data and FEMA to manage the pandemic 
response. These legal agreements limit the sharing of those 
business sensitive information. These agreements also require 
the commercial market to provide the material at reasonable 
prices, and provide the government with data on where the 
materials are provided.
    Looking ahead, we are preparing America to be ready and 
responsive beginning with the increasing our reserves and 
expanding domestic capacity. Using the Defense Production Act 
and other tools, we are working with industry to increase 
domestic production supplies and pharmaceuticals. This is a 
complex task of investments in Federal contracting. The DPA 
cannot be used to force companies to make medical supplies. 
Each industry expansion effort takes research and planning, 
this is being done at speed. We have used the DPA more than 10 
times across many items with high potential for more actions.
    We now have more ventilators in the Strategic National 
Stockpile than before the pandemic, thanks to U.S. production. 
Pre-COVID, the stockpile had less than 18 million N95 masks. We 
are growing that to 300 million. With the DPA, we grew U.S. 
production of N95 masks. The stockpile had no ventilator drugs. 
We are now growing it to have at least five in stock with 
months' worth of supply. These efforts are part of an overall 
strategy to transform the stockpile, build a holistic supply 
chain echo system capable of being responsive, a modernized 
stockpile combined with more U.S. production will enable a 
continued Federal response.
    Thank you for the opportunity to testify today, I look 
forward to answering any questions that you may have.
    Mr. Clyburn. Thank you. Admiral Giroir.

STATEMENT OF ADMIRAL BRETT P. GIROIR, M.D., ASSISTANT SECRETARY 
      FOR HEALTH, DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Giroir. Chairman Clyburn, Ranking Member Scalise, and 
distinguished members of the committee, on March 12, Secretary 
Azar requested that I lead the coordination of COVID-19 testing 
efforts within the Department of Health and Human Services. And 
to be clear, although I am assuming some of my traditional 
roles as the Assistant Secretary, I am maintaining my role 
coordinating testing, including now the new NIH RADx diagnostic 
program, to assure that innovations are immediately translated 
into practice.
    Before I discuss supplies and allocations, we are all 
concerned about recent data from several states indicating 
rising infections, and now an uptick in hospitalizations and 
deaths, even as the other states and the great majority of 
counties are maintaining a low infection burden. Knowing that 
the outbreak, the current outbreak, is driven by younger adults 
who are likely asymptomatic, and the fact that we are in a much 
better position today in terms of our PPE supplies, treatments, 
and testing, we can reverse these current trends if we work 
together.
    First, we must take personal responsibility and be 
disciplined about our own personal behavior, maintain physical 
distancing, wear a face covering when you can't physically 
distance, wash your hands, stay at home if you feel sick. If 
you have been in close contact with someone infected, or in a 
gathering without appropriate precautions, get tested. Shield 
the elderly, but also the vulnerable of any age. And follow the 
guidelines for opening up America again. The criteria are very 
specific, and are as relevant today as they were when we 
released them.
    In addition this week, we are initiating surge testing in 
multiple communities of highest concern in coordination with 
state and local officials.
    To date, the Nation has performed over 35 million COVID-19 
tests, now averaging over 550,000 tests per day. Preliminary 
data indicate that the states far surpassed their testing goals 
for June. And even without major technical advances, I estimate 
the Nation will have the capacity to perform 40 to 50 million 
tests per month by fall. But with emerging techniques, like 
pooling of samples, combined with investments and point-of-care 
technologies, that number could easily be 80 million available 
per month if they are needed.
    To get to this point where we have such a rich testing 
ecosystem, we address sequential challenges, and implemented a 
phased approach to meet the testing goals at each stage of the 
pandemic, especially now, during reopening, when the need for 
testing is at its greatest.
    In March, HHS and FEMA developed and implemented 41 
community-based, drive-through testing sites in locations 
prioritized by the CDC, in collaboration with state and local 
partners. These sites have tested nearly 318,000 high-risk 
individuals, and served as prototypes that have been duplicated 
multifold.
    Next, we leveraged trusted pharmacies to further expand 
community testing, especially for minorities and underserved. 
This Federal program is now providing testing at 624 locations 
in 48 states and the District, 17 percent of which are in 
communities with moderate to high social vulnerability. This 
program has tested over 820,000 individuals. federally 
qualified health centers serve over 29 million people across 
the Nation. They provide care to one in five of those 
uninsured, one in five rural Americans, one in three in 
poverty, and 1.3 million homeless. Again, to assure we reach 
these most vulnerable among us, 94 percent of FQHCs now offer 
COVID testing.
    To further fight COVID-19 among racial and ethnic 
minorities, as well as rural and other socially vulnerable 
communities the office of the Assistant Secretary, my office, 
Office of Minority Health, announced Morehouse School of 
Medicine as the awardee for a new $40 million initiative to 
create, and develop, and implement a strategic network of 
national, state, territory, Tribal, and local organizations to 
deliver COVID-19-related information to communities hardest hit 
by the pandemic.
    I would like to close by recognizing my fellow officers in 
the United States Public Health Service Commissioned Corps, the 
uniformed service that I lead. 4,536 officers have deployed to 
directly support the pandemic response, exemplifying the care 
and compassion that all of us feel for those who have suffered 
during this pandemic.
    I thank each and every one of these officers and their 
families. And on their behalf, I want to thank all of you in 
Congress for supporting our training needs and the 
establishment of a ready Reserve Corps to supplement our ranks 
during inevitable future national emergencies.
    Thank you so much for the opportunity to provide these 
remarks.
    Mr. Clyburn. And thank you very much.
    Assistant Secretary Fahey.

 STATEMENT OF HON. KEVIN FAHEY, ASSISTANT SECRETARY OF DEFENSE 
             FOR ACQUISITION, DEPARTMENT OF DEFENSE

    Mr. Fahey. Chairman Clyburn, Ranking Member Scalise, and 
distinguished members of the committee, thank you for the 
opportunity to testify today on matters related to the 
Department of Defense role's in procuring and distributing 
Personal Protection Equipment, PPE, medical equipment, testing 
supplies during the coronavirus pandemic.
    While COVID-19 has an unprecedented impact on the Nation, 
Secretary Esper has led the Department of Defense and 
contributed to the administration's whole-of-government 
response. Today, I will describe key elements of how the 
Department's acquisition enterprise has utilized existing and 
new authorities in support of the other Federal agencies. This 
includes our work ensuring an adequate supply of PPE, medical 
equipment, and testing supplies to control the spread of the 
virus and protect American lives.
    The COVID-19 pandemic has highlighted critical shortfalls 
in the medical supply and the PPE supply chain. On March 18, 
President Trump invoked the Defense Production Act. In doing 
so, he delegated authority to the Secretary at Health and Human 
Services to determine nationwide priorities and allocation of 
the health and medical resource. Accordingly, we have been 
supporting HHS to execute the Defense Production Act 
authorities.
    On March 27, the President signed the CARES Act, it 
includes language and resources to mitigate critical 
shortfalls, and to create and expand domestic industrial-based 
capabilities. I'd like to thank Congress for passing the CARES 
Act, and all the support you've provided during this national 
emergency.
    To ensure that the Department could leverage all the 
resources support to HHS and FEMA, my boss, the Under Secretary 
of Defense for Acquisition and Sustainment, Ms. Lord, created 
the COVID-19 Joint Acquisition Task Force or JATF. The JATF 
team has enabled HHS and FEMA to access the DOD acquisition 
work force, our expertise, our authorities, quickly and 
effectively. The JATF work with HHS has evolved. Today, it 
supports expanding and replenishing the Strategic National 
Stockpile. It is also working to expand domestic manufacturing 
base for certain items. This line of effort includes procuring 
critical medical supplies and PPE.
    I'd now like to address, more specifically, the areas you 
asked about in your invitation letter, PPE medical equipment 
and test supplies. In the area of PPE, the Defense Logistics 
Agency, DLA, has been instrumental in supporting HHS and FEMA. 
DLA has executed over 13,000 contract actions obligating over 
$800 million as of June 22. It includes FEMA mission 
assignments and HHS interagency agreements valued at nearly $2 
million. DLA efforts provide test kits, ventilators, 
pharmaceutical drugs, and PPE to DOD and other government 
partners. This support includes ongoing efforts to supply 
nearly 15,000 nursing homes with a two-week supply of PPE, also 
supplied 107 million of PPE to the Javits Center in New York 
City.
    We have taken steps to address the overwhelmingly reliance 
of foreign suppliers, and have been particularly successful in 
the N95 masks. We have executed over 250 million in increased 
production here in the United States. Our investments will 
increase production beginning in July with a total monthly 
increase of 70 million N95 masks per month by the end of the 
calendar year, enabling the U.S. to domestically meet the 
projected demand of medical community beginning in 2021.
    Turning to medical equipment, DOD has played a significant 
role in providing equipment in areas of need throughout the 
country. We have helped HHS manage nearly 3 billion worth of 
contracts to deliver, over 22,000 ventilators to the Strategic 
National Stockpile. This enabled HHS to meet critical demands 
during the peak of the pandemic and posture for the response of 
any resurging of COVID.
    We now focus to support the longer-term stockpiling of 
ventilators. As testing is becoming more a component to fight 
against COVID, the community quickly determined that we faced a 
global shortage of nasal swabs. Once we realized we were going 
to run short, we engaged industry to determine where we could 
increase capacity. In late April, we awarded a contractor to 
expand swab manufacturing by 20 million per month, starting 
next month. We recently awarded an effort to increase test kit 
capacity by 2 million tests per month starting in December. We 
are exploring additional proposals to support expanding tests 
in COVID-19.
    A strong domestic and industrial base is critical to the 
economic and national security. Rapidly sourcing, procuring, 
and moving items when transportation corridors are not 
operating normally is challenging. We have demonstrated our 
commitment and willingness to support the interagency 
requirements and leveraging our expertise to provide immediate 
and impactful support to the Nation.
    I am incredibly proud of the Department's response to 
national emergency, and to our dedicated individuals who have 
worked diligently on behalf of the American people.
    I look forward to your questions.
    Mr. Clyburn. Thank you very much. We are now moving to 
questions and answers. And I'm going to recognize myself for 
five minutes.
    In June, an internal White House document was released and 
shows projections of supply and demand for masks, gowns, and 
other supplies. Admiral Polowczyk, your name is on this 
document. Are you familiar with it?
    Mr. Polowczyk. Yes, Chairman, I am.
    Mr. Clyburn. This document confirms what our committee has 
been hearing for weeks, that we face serious shortages in 
Personal Protective Equipment, including masks and gowns. For 
example, page four shows demand for N95 masks dwarfed supply in 
March, April and May. It also shows that we will need more than 
160 million N95 masks in July alone. But the imports and the 
domestic production together will only supply about 130 million 
masks. That leaves a projected shortfall of about 30 million 
masks. The document suggests that that could be made up by 
decontaminating and reusing old masks, even though the FDA, 
CDC, and even the largest mask manufacturer, 3M, have raised 
safety concerns about this method, and many workers have 
refused to use it.
    Admiral, how is it possible more than five months into this 
crisis, our country is still facing a possible shortage of 30 
million N95 masks this month?
    Mr. Polowczyk. Sir, first, let me put a little context on 
this. What the supply side does not have, because I have no 
visibility of knowing what states, local municipalities, and 
private institutions have bought. So, I did not add into this 
the hundreds of millions of masks that I know the state of 
California has bought, or other states for that fact. I did not 
try to estimate that into my supply calculations.
    Second, for context, the demand bars also represent COVID 
demand, opening America, that pre-COVID medical. And in the 
worse-case scenario of every worker I've listed there, 
nonhealthcare, janitorial services, everybody that thinks they 
need an N95 masks, but may not need an N95 mask. So, it's a 
stacked demand chart with worst-case estimates, but I did not 
add in the supply side all of those unknown factors that I 
could not know.
    Mr. Clyburn. Thank you for that. But this report also 
projected shortages--indicated the projected shortages may be 
conservative. And let me quote from it, ``Steadily declining 
COVID hospitalization rates should reduce daily hospital PPE 
usage.'' That's in the report.
    However, hospitalizations are skyrocketing. They have 
reached record highs in my home state of South Carolina, in 
Texas, and Arizona, and many other states. And I just heard 
last night or early this morning that there is one jurisdiction 
where there are 101 percent of capacity for beds. Now, Admiral, 
do you agree that the surge that we are now experiencing could 
very well increase the demand for PPEs?
    Mr. Polowczyk. The surge of cases, and, then, therefore, 
the surge of hospitalizations, again, the demand slides on here 
consider that we've completely opened up and are conducting all 
the pre-medical COVID. So, as states manage their issues, and 
then limit elective surgeries or other surgeries, that PPE 
would then be able to go for these items. So yes, I'm cognizant 
of the increases. But states are reporting and hospitals are 
reporting more supplies on hand. I'll address that as we go 
forward, sir.
    Mr. Clyburn. Well, thank you very much.
    I see my time has expired. I do have one or two other 
questions, but I'm going to lead by example. I will now yield 
to chairman--Ranking Member Scalise.
    Mr. Scalise. Thank you, Mr. Chairman.
    I'll start with Rear Admiral Polowczyk. There's been a lot 
of questions raised about the Defense Production Act. And we 
see it continuing to pop up, people saying why isn't it being 
used. And yet, I go back and look back in March, in April, in 
May, numbers of examples where President Trump actually did 
invoke the Defense Production Act to spur more things, like 
ventilators, when they were in short supply, trying to get 
other things brought forward, including masks, using the 
Defense Production Act.
    Are you aware of examples of where the Defense Production 
Act has been invoked by President Trump to move things faster 
here in production?
    Mr. Polowczyk. Yes, sir. So, the Defense Production Act, as 
Honorable Fahey indicated, it was first the authorities were 
giving to Health and Human Services and FEMA. And then, I 
believe very shortly after that, it was also used to prevent 
the shipping of medical supplies overseas, and then rapidly 
followed by uses for the purchasing and production of 
ventilators. We've subsequently dived that supply chain for 
ventilator production, and have used it multiple times for 
parts and components for production of ventilators.
    I brought over from the Department of Defense acquisition 
professionals to help, and those 11 different manufacturers 
dived their supply chains, find pinch points, and then we used 
the Defense Production Act in certain investments in filter 
material, and other consumables to relieve supply chain issues 
so they can make more.
    Mr. Scalise. Thank you. So, it just seems kind of strange 
that you hear some people still saying the Defense Production 
Act hasn't been used or, needs to be used. You just cited 
multiple examples where it has been used, we've seen multiple 
examples where it has, and continues to be used.
    Mr. Fahey, can you testify? Have you seen familiar uses of 
the Defense Production Act to help America meet this challenge?
    Mr. Fahey. Yes, sir. I have a long experience in the 
Department of Defense, where I have seen this used quite often, 
mainly in two areas: Title 1, which is prioritization; and 
Title 3, which is ramping up production. I was sort of in the 
middle of mind resistant to ambush protection where we used it 
a lot. And what I would tell you is that you see that 
immediately in early March we sent our lead, our senior 
executive who leads DPA over to FEMA to lead the Defense 
Production Act Task Force.
    The other things that I will tell you that the 
administration challenges us with that we haven't used a lot, 
one is Title 7, which is really where we get industry to 
collaborate to work on things. And I will tell you, I think 
that's going to be invaluable to bring in domestic medical 
equipment here to the United States.
    Mr. Scalise. I apologize. I know we're on a short supply. I 
appreciate that you've given those examples. I applaud 
President Trump for invoking the Defense Production Act, and 
using so many other tools that he's had available to meet this 
challenge to increase the production of ventilators, masks, 
gloves, so many other PPE supplies.
    But I want to ask you, Admiral Polowczyk, this has come up 
a lot. This committee unfortunately hasn't put a focus on China 
that needs to be placed on not just in holding China 
accountable, but also, doing more work to try to bring some of 
that manufacturing back, because we saw, as China was lying to 
us and the rest of the world, they were hoarding PPE supplies. 
They were buying them from other countries that were making 
them to hold onto them so that once the rest of the world found 
out, there was nothing to purchase.
    Do you think it's in the national security interest of the 
United States of America to bring more of that manufacturing of 
things like PPE back into this country so we are not reliant on 
China in the future?
    Mr. Polowczyk. Sir, yes. The industrial base expansion 
efforts going forward are the linchpin of what we need to do. 
We need to make more here, need to have a larger stockpile, and 
then write contracts to have ready reserve as things get issued 
from a stockpile whether it be a state or Federal, have the 
ability to contract for it from a U.S. manufacturer. That's 
essentially what we're trying to do going forward.
    Mr. Scalise. I appreciate that testimony. I hope we put 
more focus on that in this Congress, because Congress surely 
can help expedite, and it shouldn't just be the administration 
on their own trying to do more manufacturing here, so that 
we're not as reliant on the other countries and we could meet 
that demand even greater, even if China lies, manipulates, does 
the things that they have historically done in the future.
    Finally, Mr. Giroir, first, welcome here. And again, 
Admiral Polowczyk, thank you, and the FEMA administrator for 
the help you gave to our state when we needed that help. Even 
though you went to the wrong high school in New Orleans, I did 
want to ask you a serious question. We've been doing a lot of 
investigation into nursing homes. I know your agency has worked 
on giving guidance to nursing homes all across the country. 
Most states followed that guidance properly, some states 
didn't. Have you seen the examples where some states went 
against CMS guidelines? Have you found out why they went 
against the guidelines? And did those deviations lead in what 
we're seeing is potential deaths that should have never 
occurred, maybe in the thousands of seniors in nursing homes 
who should have never died if they would have just followed the 
Federal guidelines that y'all gave?
    Mr. Giroir. So, thank you for the question. I think I went 
to the right high school, but we'll let that pass. What you're 
referring to is something we really need to go back and look 
at, because it is very concerning. The CDC was very clear that 
in order to take care of a COVID nursing home patient, there 
needed to be pretty significant mitigation measures, the 
ability to isolate all the PPE, trained staff, cleaning, et 
cetera. That was a sine qua non. If you couldn't do those 
things, you shouldn't have it. And there were policies among a 
few states that said, it doesn't matter, we're going to send 
you that patient, as long as they are medically stable, you 
have to take them.
    I wasn't there. I wasn't that medical director, but that's 
a really concerning practice, because it puts potentially 
infectious people right into a place where we know that if 
other residents get it, you have a 30, 40, 50 percent 
mortality. So, that is a concerning practice, and we certainly 
need to look at that in retrospect. That certainly isn't 
happening.
    Mr. Scalise. I hope we do. Thank you.
    And Mr. Chairman, I yield back.
    Mr. Clyburn. I thank the ranking member.
    Before I move on to the members, I wish to reiterate that 
which I said at the top of our meeting today. I can't--I don't 
have authority to keep anybody out of this room, but I do have 
authority of who I may recognize to participate in this 
hearing. I made it very clear that if you're not wearing the 
masks, I'm not going to recognize you. Now, this is not Jim 
Clyburn, this is not anything that's partisan. I just want to 
read a couple of things here.
    Ranking Member Scalise, you made it very clear at our last 
meeting that you'll hold on to this mask wearing, and I think, 
to quote, you said, it's no big deal. I appreciate that. I've 
talked to Dr. Green. And I appreciate that. I've been reading 
from Kevin McCarthy, who made it very clear. I'm going to quote 
him here. ``Wearing a mask is the best opportunity for us to 
keep this economy open, keep us working, keep us safe, and help 
us as we build toward that vaccine where we're in a much 
stronger position than any other country before.''
    I agree with all of these. And there are others that I 
won't bother to read. I would hope that we would do our part. 
So, I am going to reiterate that we are going to honor the 
wearing of masks, because that's what the Attending Physician 
has instructed, and he has not made it either/or distances, he 
made it and social distancing, and wearing a mask.
    With that, I yield to----
    Mr. Scalise. I'm sorry. Would the chairman yield?
    Mr. Clyburn. Yes.
    Mr. Scalise. I know we talked about this privately, as well 
as--I think we've seen today everybody has been complying. Is 
there any suggestion that there is not compliance today? 
Obviously, the guidelines have been updated. And you saw recent 
guidelines by the Attending Physician who did suggest and 
require masks, where in the past they were not mandatory, it 
was social distancing, clearly which still is important, and 
then there was an addition that masks be mandatory. And I think 
we're seeing everybody comply with that. Is that----
    Mr. Clyburn. Well, it all depends how you want to qualify 
that. But to bring a mask in the room, not wear it until we get 
to the questioning is not wearing a mask. I made it very clear. 
If we're not speaking, we ought to be wearing a mask. If we're 
not speaking, we ought to be wearing a mask. I've made that 
very clear. And I've been around for a while and I understand 
recalcitrance when I see it. I understand it when I feel it. 
And I see it and I feel it. I just want you to know that I'm 
going to respond to it appropriately.
    With that, I yield to the chairwoman.
    Ms. Waters. Thank you very much, Mr. Chairman.
    I'm going to direct my first question to Rear Admiral 
Polowczyk. You indicated in response to Mr. Clyburn's question 
about whether or not your memorandum really was inclusive 
enough for you to know and understand what the needs are going 
to be because of this fight that we're having. You indicated 
that you really didn't know what the states were doing. Is that 
right?
    Mr. Polowczyk. Not essentially, ma'am. I've had 
conversations with all 50 states.
    Ms. Waters. Excuse, me. Rear Admiral, you did not include 
in your calculation what the states may have been doing?
    Mr. Polowczyk. No. Many times states were not forthcoming.
    Ms. Waters. So, why don't you know what the states are 
doing? What is the plan? How do you know? How should you know 
what the states are doing?
    Mr. Polowczyk. Ma'am, you would like--OK.
    I've had several--over the last couple of weeks, I've had 
several conversations with every state, and all of our 
territories, with their health officials and their emergency 
managers, to understand their stockpiling. And I will tell you 
that 70 percent of the states have at least 30 to 60, 90 days 
of supplies on hand.
    Ms. Waters. Where----
    Mr. Polowczyk. For those that don't have that amount, they 
have at least 30 days.
    Ms. Waters. Reclaiming my time.
    Do you now have a plan by which you absolutely have the 
information forthcoming to you so that, when you tell us about 
your projections, we know that they're including whatever the 
Federal stockpile is and what the states have? Is there a plan?
    Mr. Polowczyk. Yes, ma'am. There is a plan.
    Ms. Waters. And how does the plan work?
    Mr. Polowczyk. We are going to have several echelons of 
supply. First, we have been able to communicate with the 
states. The states have told us, as I just explained, that 
there are plans, and some states are working toward 90 to 120 
days' worth of supply. The national stockpile, with the help of 
Defense Logistics Agency, is going to grow to three months.
    Ms. Waters. Reclaiming my time, do they have a report that 
they do to you on a regular basis? Every week? Every month? 
Every 30 days? How does the plan work?
    Mr. Polowczyk. No. The states at this time are not 
reporting on that--on that----
    Ms. Waters. Thank you. That's good. That's what I 
understand. And that's why you don't have the projections that 
include them. You don't have a regular plan.
    Now I want to ask: How do you work with FEMA?
    Mr. Polowczyk. I am the Supply Chain Task Force Lead 
embedded within FEMA and so that task force is part of the--of 
Administrator Gaynor's effort of work.
    Ms. Waters. Thank you.
    So, does everyone report to you? Do you report to anyone 
else?
    Mr. Polowczyk. The chain of command, again, I am working at 
FEMA as the Supply Chain Task Force Lead. The--that chain of 
command leads to a unified command group, which is Health and 
Human Services and the FEMA Administrator, which then goes to 
the White House Task Force.
    Ms. Waters. Thank you.
    What role does Jared Kushner play in this command?
    Mr. Polowczyk. Mr. Kushner plays no role in anything I do.
    Ms. Waters. What role does he play that you know about? 
What does he do? He's been sent to FEMA. What is his role in 
FEMA?
    Mr. Polowczyk. Ma'am, he's not at FEMA.
    Ms. Waters. Where is he?
    Mr. Polowczyk. Ma'am, I believe he's a special advisor to 
the White House Task Force.
    Ms. Waters. Is he involved in contracting at all with--for 
PPP with any organization, with any provider, with any 
business?
    Mr. Polowczyk. Ma'am, not to my knowledge.
    Ms. Waters. He may be, but you don't know about it. Is that 
right?
    Mr. Polowczyk. Ma'am, I would highly doubt that he has any 
role in acquisition and contracting. Like even myself, I 
don't--the acquisition and contracting people don't work for 
me. There's----
    Ms. Waters. Who is responsible for contracting with private 
businesses?
    Mr. Polowczyk. The FEMA Administrator owns contracting 
authority, along with mister--Honorable Fahey here. His team 
owns the Department of Defense's contracting authority, and I 
have none of those authorities.
    Ms. Waters. Does the competition still exist between the 
Feds and the states for PPP? I understand that states have on 
some occasion made contact with international businesses to get 
supplies, and those supplies on the way have been commandeered 
by the White House or Feds. Do you know anything about that? Is 
there competition still going on?
    Mr. Polowczyk. I have no knowledge of any time where FEMA 
has confiscated anything for any state.
    Ms. Waters. I did not mention FEMA, but I did specifically 
mention the White House. Do you know any time that they have 
been--PPP that have been commandeered that have been ordered by 
the states and paid for by the states?
    Mr. Polowczyk. Ma'am, I have no knowledge of that. I have--
nobody has presented anything to me that was concrete enough, 
other than conjecture.
    Ms. Waters. And may I just wrap this up by asking, who 
makes the determination about what states get what from the 
Federal supply?
    Mr. Polowczyk. Ma'am, the--that's a FEMA process and so if 
the--I'll answer to the best of my ability for Administrator 
Gaynor, but the FEMA stood up, as I said in my oral remarks, a 
resource prioritization cell. That Resource Prioritization Cell 
uses information from CDC, Dr. Birx, the epidemiologists, and 
the requests from the states. That resource prioritization cell 
then takes all that into account and provides some supplies to 
the states.
    Ms. Waters. Mr. Chairman, I yield back my time.
    Mr. Clyburn. I thank you.
    The chair now yields to Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Admiral Giroir, what's more important: going to church or 
protesting?
    Mr. Giroir. I'm a public health person. I'm not going to 
say what's more important, but both need to have protection by 
the guidelines.
    Mr. Jordan. Democrats don't think that. Democrats think 
protesting is a lot more important than going to church. We've 
got a story from Governor Northam. Sixteen people go to a 
sanctuary that holds 225 people; they get cited. Nothing 
happens to thousands and thousands of people who protest, not 
maintaining social distances and not wearing a mask.
    How about this one? What's more important: going to a loved 
one's funeral or protesting?
    Mr. Giroir. We absolutely need to be consistent in the way 
we apply things, and there's obviously some inconsistencies.
    Mr. Jordan. That's because the First Amendment's the First 
Amendment, not just parts of it, right?
    Mr. Giroir. I'm not a constitutional lawyer.
    Mr. Jordan. No, but you're an American citizen. You 
understand your rights. You understand the Constitution----
    Mr. Giroir. The First Amendment is the First Amendment.
    Mr. Jordan [continuing]. The Bill of Rights, the First 
Amendment has a number of rights. It doesn't just say 
protesting trumps everything else. Mayor de Blasio, when New 
Yorkers who gathered to mourn a Hasidic rabbi, he said this: My 
message to the Jewish community and all communities is this 
simple. The time for warnings has passed. I've instructed NYPD 
to proceed immediately to summons them.
    If you go to someone's funeral, you're going to get 
arrested. But you can protest in the streets, not maintain 
social distancing.
    How about this one? What's more important: engaging in your 
livelihood, running your business, or protesting?
    Mr. Giroir. Again, you're having a rhetorical question 
there. We get your point. I think public health practice----
    Mr. Jordan. Well, you might get my point. But this is the 
problem. Democrat Governors, Democrat mayors don't. Mayor 
Garcetti said this. He said he was going to turn off people's 
utilities, shut off utilities if anyone tried to reopen their 
business. Unbelievable. And yet Mayor Garcetti, here's what 
else Mayor Garcetti said. He said back in April, he said: 
Snitches will be rewarded.
    What's more important, Admiral, rewarding snitches for 
ratting out their neighbor who goes to an empty beach or 
actually having the police stop rioters and looters and big 
groups destroying national monuments and protesting and 
destroying private property? Which one do you think of those is 
more important?
    Mr. Giroir. Well, let me make a statement that public 
health standards need to be consistently applied, and when 
they're inconsistently applied, there's going to be a lot of 
frustration among the people who are trying----
    Mr. Jordan. No kidding. No kidding. We have seen the height 
of inconsistency from Democrat mayors, Democrat Governors all 
over this country.
    What do you think's more important, Admiral, the President 
cutting off travel to China, where this pandemic started at an 
early date, or Joe Biden calling that same action xenophobic? 
What's more important?
    Mr. Giroir. Restricting travel from China and then Europe 
was really critical steps for us to slow the infusion of 
infected individuals into the country.
    Mr. Jordan. No kidding. No kidding. Not xenophobic, was it? 
Just a smart move.
    Mr. Giroir. I have not seen any xenophobia in any of our 
discussions. We're trying to make decisions based on public----
    Mr. Jordan. Democrats sure saw it way back when the 
President made a decision that everyone else criticized. 
Democrats sure saw it. Democrats are defending the World Health 
Organization. It's probably more important that we not give 
money to an organization that lies to us than to continue to 
support them. What do you think's more important? Continuing to 
give money to the World Health Organization, who lied to us 
about the start of this pandemic, or maybe cutting off the 
money to the World Health Organization, Admiral?
    Mr. Giroir. As the U.S. representative to the Executive 
Board of the World Health Organization, it's clear that the 
organization needs reforms, and I will work with the 
administration to try to implement those reforms, while 
preserving some very important global public----
    Mr. Jordan. How about this one? How about this one? What's 
more important: requiring committee members to wear a mask in a 
committee hearing when they're 10 feet apart from anyone else 
or not sending COVID-positive people back into nursing homes? 
Which is more important?
    Mr. Giroir. That's a public health determination, and I 
will say it's definitely more important not to accepted COVID-
positive people back to----
    Mr. Jordan. No kidding. Especially--and probably it's more 
important not to do it for 46 days than even to do it for even 
one day, right?
    Mr. Giroir. Yes, sir.
    Mr. Jordan. And is it probably important, when we're 
dealing with the pandemic, that we actually get the information 
from the people who engage in that behavior, like the Governor 
of the state of New York who for 46 days sent COVID-positive 
people back into nursing homes? Might it be helpful if he gave 
us that information?
    Mr. Giroir. Information is always the basis for which we 
could understand what's happened and how to avoid it in the 
future, yes, sir.
    Mr. Jordan. Admiral, I appreciate your work. I appreciate 
all you, the work you're doing. Common sense, commonsense 
approach to all this versus what we're seeing from Democrat--we 
can't let people go to their loved one's funeral but, oh, my 
goodness, we can join thousands of people at a protest. Mayor 
Garcetti can walk out in front of thousands of people, kneel 
down to them without a mask, that's fine. But, oh, you go to an 
empty beach, he wants someone to snitch you out, rat you out, 
and report to you the Government. And I guess you get some kind 
of reward. Maybe he's handing out ribbons or certificates or 
something for people who rat out their neighbors. I don't know.
    But I'd like some common sense. I'd like some consistency 
about the First Amendment, about the Constitution, when it 
comes to these Democrat mayors and Democrat Governors around 
the country.
    I yield back.
    Mr. Clyburn. As I go to Maloney, let me ask you a question, 
Mr. Giroir. Is COVID-19 a hoax?
    Mr. Giroir. No, sir, it's not a hoax.
    Mr. Clyburn. Will it disappear miraculously?
    Mr. Giroir. We will only gain control over COVID-19 by 
disciplined public health measures and eventually a vaccine.
    Mr. Clyburn. And in the interim, wearing the masks and 
socially distancing will indicate us doing our part.
    Mr. Giroir. Yes, sir. We want to stress that wearing a 
mask, physical distancing, hygiene are all critical public 
health components. Yes, sir, you're correct.
    Mr. Clyburn. Thank you very much, sir.
    With that, I yield.
    Mr. Jordan. Mr. Chairman, Mr. Chairman.
    Mr. Clyburn. I yield.
    Mr. Jordan. Yes, I didn't say it wasn't important to 
maintain social distancing and wear a mask. I said: What's more 
important? That policy or sending, not sending people with 
COVID-positive back into nursing homes? And the admiral was 
really clear. He said the second one is much more important 
than the first. All of them are important. That's why we're 
doing it. But the second one is more important than first, and 
we would like the information. The ranking member's been asking 
for weeks for this information with no help from you and the 
majority to get that information. That was my point.
    Mr. Giroir. And maybe just to clarify, I think the question 
was not wearing a mask versus nursing home but wearing a mask 
in here when you're 10 feet apart versus----
    Mr. Jordan. Yes. Exactly.
    Mr. Giroir [continuing]. In a nursing home. Because I don't 
want to diminish the importance of wearing a mask.
    Mr. Jordan. I thank the admiral for his commonsense answer.
    Mr. Clyburn. Yes, I appreciate that. But I reiterate this 
is not a hoax.
    Mr. Jordan. I didn't say it was. You're the one bringing it 
up.
    Mr. Clyburn. Well, yes, I want to bring it up.
    Mr. Jordan. You think it's a hoax? I don't.
    Mr. Clyburn. Because a Republican President said that it 
is.
    Mr. Jordan. I think relevant to the pandemic----
    Mr. Clyburn. OK.
    Mr. Jordan [continuing]. It looks like common sense and 
good policy.
    Mr. Clyburn. I just want you to know you won't be checked.
    Mr. Jordan. Checked for what?
    Mr. Clyburn. For everything that you say in here.
    Mr. Jordan. So, are you.
    Mr. Clyburn. OK.
    Mr. Jordan. No, I'm fine with being checked.
    Mr. Clyburn. I understand, because I'm going stick with the 
science.
    Mr. Jordan. I----
    Mr. Clyburn. I'm going to stick with the science. All 
right.
    I now yield to Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman. And thanks to you 
all of our witnesses and their work.
    I'd first like to ask, Admiral Giroir, I want to ask you a 
straightforward question. Do you believe the Trump 
administration provided adequate guidance to the private sector 
on how to procure and distribute PPE to the people in our 
Nation who needed it most? Admiral?
    Mr. Polowczyk. Ma'am, I think you meant me. It is not 
Admiral Giroir.
    These legal agreements that we signed with the commercial 
enterprise allowed us to direct their efforts to where the 
government felt the highest need was.
    Mrs. Maloney. Thank you.
    I'm sorry, Admiral, but according to an investigation that 
my staff on the Oversight Committee enacted, which we're 
releasing today, the administration completely and utterly 
failed to provide the private sector with guidance on PPE 
during the first three critical months of the coronavirus 
crisis, from January all the way through March. We talked to 
the biggest medical distribution companies in the country and 
the industry trade organization. They told us that they were 
pleading with you for guidance on how to prioritize the 
distribution of PPE and a host of other critical questions, but 
you were missing in action.
    Mr. Polowczyk. Ma'am, I don't mean to interrupt but you----
    Mrs. Maloney. Excuse me?
    Mr. Polowczyk. I'd like to clarify. I've only been here 
since the 19th of March. So, I would love to answer that from 
January to March, but I was only moved from the Pentagon on the 
19th of March.
    Mrs. Maloney. OK. Well, the administration was missing in 
action, and according to the trade group, quote, folks in the 
industry saw that things were getting worse and their requests 
for guidance were increasing week by week, end quote. They told 
us, quote, everyone was asking the same questions, but guidance 
wasn't coming, end quote.
    On March 28, the President of the industry's trade group 
sent a letter, literally begging the administration to, quote, 
provide the strategic direction needed to more effectively 
target PPE supplies based on greatest need, end quote.
    So, Admiral, with all due respect, these companies told us 
you or the administration failed to provide the guidance that 
they needed.
    Now I want to move on. There's another issue that's even 
more troubling. Admiral, did your agency or anyone else in the 
Trump administration ever press U.S. companies to purchase PPE 
from a specific state-subsidized Chinese company at exorbitant 
prices?
    Mr. Polowczyk. First, to answer the priority question, we 
hold----
    Mrs. Maloney. Excuse me. I'm going forward because I only 
have five minutes.
    Mr. Polowczyk. OK. I hold daily----
    Mr. Scalise. Could I ask a point of order, Mr. Chairman? 
The gentlelady from New York literally accused a rear admiral 
of the United States military of being missing in action. Can 
he at least be able to defend himself? That's an absurd claim. 
No one should make a claim to a witness who's a military 
service member to say he was missing in action. She referred to 
him by name. That's absurd. He ought to have the opportunity to 
defend himself, Mr. Chairman.
    Mrs. Maloney. Point of order, Mr. Chairman.
    Mr. Clyburn. I understand I'm aging a little bit, but I 
thought she said the administration was missing in action.
    Mr. Scalise. Well, she said he was missing in action. He 
made it clear that he wasn't even here during that time.
    Mr. Clyburn. He made it very clear.
    Mr. Scalise. And she said the administration when she 
started by saying he was missing in action. He's a rear admiral 
of the United States military. He does not deserve to be talked 
to that way, and he at least ought to have the ability to 
defend himself.
    Mr. Clyburn. You've stated your point of order.
    Mrs. Maloney, you're recognized.
    Mrs. Maloney. OK. I apologize. I respect the military. My 
father served in the military, my husband and my brother. I 
respect the military tremendously. I was referring to the 
administration not being there when the people of this country 
needed them. So, now I'd like to get back to my questions, if I 
could, Mr. Chairman.
    Mr. Polowczyk. Yes, ma'am, I'll quickly answer the follow-
on question. There's always been a firewall between the 
requiring individual and the person who is actually doing the 
buying. So, I know of no direction, manipulation, or pressure 
of a contracting official to enter into an agreement with any 
company.
    Mrs. Maloney. Thank you.
    But according to our investigation and the companies who 
agreed to talk to us, not one but several of them told us that 
the Trump administration pushed them to buy PPE for weeks 
through one particular Chinese company called BYD, which is 
heavily subsidized by the Chinese Government.
    One company told us that HHS pressed them to buy PPE from 
BYD at, quote, a price that was fairly high, end quote. Another 
company told us that they, quote, made the decision to decline 
purchasing from BYD because of the high price, very uncertain 
supply chain, end quote.
    Were these companies lying, Admiral?
    Mr. Polowczyk. Ma'am, as the head of the Supply Chain Task 
Force, I did no business with BYD because, one, they were not 
proven and, two, I can't speak to the price, but they did not 
have a proven track record or were not FDA-approved. It's also 
the same company that I think the state of California took lots 
of risk and bought a lot of masks from, but I know of no 
forcing of anybody to go do business with BYD.
    Mrs. Maloney. Admiral----
    Mr. Clyburn. The gentlelady's time has expired.
    Mrs. Maloney. May I ask for an additional second? I have a 
minute. I have a very important point to make, and there was a 
lot of disruption during the questioning.
    Mr. Clyburn. OK. I recognize the gentlelady.
    Mrs. Maloney. OK. Admiral, these companies warned that 
there is, quote, way too much reliance on these Chinese
    [inaudible] companies, rather than a public/private 
partnership to procure necessary PPE, end quote.
    And I believe this shows clearly the need for us to produce 
more PPE here in the United States, and I believe this could be 
a bipartisan issue. That's why I am introducing a bill that 
would require 10 percent of the PPE in the Strategic National 
Stockpile to be produced domestically. We can't put ourselves 
in this position again. This bill is a good first step toward 
promoting a stronger manufacturing base for critical medical 
equipment.
    Thank you to the panelists, my colleagues.
    And, Mr. Chairman, I yield back.
    Mr. Clyburn. I thank the gentlelady for yielding back.
    The chair now recognizes Mr. Luetkemeyer.
    Mr. Luetkemeyer. Thank you, Mr. Chairman, and thank our 
witnesses today for their service to our country and the--all 
the hard work that you've put in to get our country back up and 
running here and protect our citizens from this deadly virus.
    Admiral Polowczyk, I'll followup on Ms. Maloney's questions 
here with regard to the supply chain. You've worked on this a 
lot, and it's really your job at this point, I guess. What do 
you see as the percentage of PPE that is now being produced in 
this country versus previously?
    Mr. Polowczyk. It's going to range by product. N95 mask, I 
think we're going to, as Mr. Fahey mentioned, as we go through 
the summer and into the fall, we will be almost wholly really 
holistically domestically reliant, and then further on down is 
where we're trying to do some effort. It's a potential--other 
DPA actions--is nitrile gloves. We essentially make zero 
nitrile gloves in the United States, and I think we're working 
hard to ramp up that production. But that's going to be 
rheostat, not a light switch. So, each product line has a 
different dimension to it, sir.
    Mr. Luetkemeyer. OK. Thank you.
    Admiral Fahey, I think--Honorable Mr. Fahey, I think this 
question may be for you. But in the acquisition of these--of 
the PPE, did you see hoarding going on by China? There appears 
to be some evidence to that effect. Did you see that yourself?
    Mr. Fahey. Sir, I did not personally see it, but I had 
heard it was going on early in the process, and I know through 
HHS that we put things in place to make sure that we checked 
the supply that was coming from China.
    Mr. Luetkemeyer. OK. I know in my state, we wound up with 
about 48,000 faulty masks that came from China. Did you see a 
lot of other faulty PPE that came from China as a result of--
you know, I don't know why--whether they just incompetent or 
whether they trying to undermine our safety of our citizens, 
but apparently there was a lot of that. Did you see that as 
well?
    Mr. Polowczyk. Congressman, if I could--this is Admiral 
Polowczyk--if I could take this for Honorable Fahey. So, yes, I 
was extremely worried about the quality of material coming from 
overseas. So, what specifically we did, before anything was 
procured, we used the Department of State and folks from 
embassies to go visit warehouses, to go visit places that we 
hadn't done business with before, and a lot of times we found 
out that there wasn't anything there. So, we didn't make any of 
those procurements. The second thing we did was we let a 
contract with Underwriters Laboratories to go do inspections 
for us to prevent that. So, we did not procure anything because 
there were reports of very faulty material coming from China.
    Mr. Luetkemeyer. Very good.
    Admiral Giroir, one of the things that's going on is 
Operation Warp Speed, which is to develop a vaccine. I think an 
important part of not only developing the vaccine is to be able 
to get it distributed, should it happen. You know, we don't 
know for sure if it will. But if it is developed, and it is 
made available to our citizens, we need to get it out as 
quickly as possible. Are you working on plans to supplement 
Operation Work Speed's development with plans for distribution 
as well?
    Mr. Giroir. Yes, sir, Congressman. I'm not personally 
involved in that but, of course, as the assistant secretary, I 
have good knowledge of that. There was truly a comprehensive 
program to not only develop a vaccine, to secure hundreds of 
millions of needles which the supply chain is involved with, as 
well as distributing that--and I want everybody to understand, 
too, that the distribution of vaccine will indeed depend on the 
vaccine's characteristics. We hope it can be distributed to the 
most vulnerable, those in high need, but we need to wait until 
the trials come out to figure out where it works, how it works 
most effectively. But there is a comprehensive program led by 
General Perna, who is really the logistics guy in the country, 
as well as Dr. Slaoui, who is widely recognized as truly one of 
the foremost vaccine developers in the world.
    Mr. Luetkemeyer. One more quick question for you, Admiral. 
With regards to reporting of deaths from a COVID situation, 
there are reports, and I've been talking to medical 
professionals, as well as I think there's evidence that even 
the Governor of Colorado found out, there's been misreporting 
of deaths for people who may have been involved in, for 
instance, an auto accident but had COVID in their system and 
that death is being reported as a COVID death because there 
apparently is a perverse incentive to do that. They get paid 
more. The hospitals get paid more for a COVID death than they 
do for an auto accident. Is there any truth to that, or how 
does this work?
    Mr. Giroir. So, the CDC that gathers the statistics is 
completely dependent upon the reports of the local coroners, 
which are also dependent on the reports of the attending 
physician who lists the causes of death. So, the Federal 
Government is dependent on the loss, but, yes, there appear to 
be some mis-incentives to overcode. We hear anecdotal versions 
of that, but I can't give you an estimate of whether that's 2 
percent, 5 percent, 10 percent, but it is something that has to 
be done at the local level, all the way down to the level of 
the physician. It's impossible for the CDC to go back and 
investigate those individually.
    Mr. Luetkemeyer. I'm from Missouri, but my youngest 
daughter lives in Denver, Colorado, and in discussing it with 
her and seeing news report to this respect, the Governor of 
Colorado had all of his COVID deaths reviewed I think around 
the end of May, first part of June, and found that 12 percent 
of them were misrepresented. That's a pretty significant 
number, and I think that's something that HHS needs to look 
into to make sure that the numbers and the data that we're 
getting is accurate. Somebody who, you know, is unfortunately 
in an auto accident but is reported as a COVID death, that is a 
ridiculous statement and a ridiculous part of our data. It 
needs to be cleaned up. So, I would certainly hope that you 
would take a look on that and see if we can get something 
fixed.
    Mr. Giroir. Yes, sir.
    Mr. Luetkemeyer. With that, Mr. Chairman, I yield back.
    Mr. Clyburn. I thank you for yielding back.
    The chair now recognizes Ms. Velazquez.
    Ms. Velazquez. Yes, Mr. Chairman. Thank you very much.
    I want to respond briefly to the claims that nursing home 
deaths were caused by the actions of a few Governors. That is 
simply false. The facts are clear. During this crisis, 
Americans have died in nursing homes in every state in the 
continental USA. In many states, such as Florida, more than 
half of the deaths from coronavirus occurred in nursing homes. 
In Ohio, an estimated 7 to 10 coronavirus deaths were in 
nursing homes.
    And from my state, New York, I grieve for every New Yorker 
who lost their life in this crisis. But I'm incredibly proud of 
New York's response. Our state followed CMS guidance at every 
stage in the process including on nursing homes. CMS guidance 
on March 13, 2020, allowed nursing homes to accept COVID 
patients.
    Question: When should a nursing home accept a resident who 
was diagnosed with COVID-19 from the hospital? Here is the 
answer put out by CMS: A nursing home can accept a resident 
diagnosed with COVID-19 and still under transmission-based 
precautions for COVID-19 as long as the facility can follow CDC 
guidance.
    Our state was following guidance put out by this 
administration which was often changing daily. What we lacked, 
however, was strong support to testing and access to testing 
and Personal Protective Equipment into nursing homes quickly to 
prevent the spread of the virus, and even as the virus recedes 
in states like New York that were initially, other states like 
Texas and Florida are seeing spikes in new cases. Over the June 
28 weekend, Arizona hit a single-day record of more than 3,800 
cases and fatalities approach 1,600. And though each state is 
required to report cases and deaths in nursing homes to the 
CDC, they are not required to share this publicly. And states 
like Arizona are choosing not to.
    As of early June, more than 43,000 long-term residents and 
staff have died from COVID-19, representing over a third of the 
Nation's known coronavirus deaths. This includes blue states, 
red states, and purple states. So, let's get the data from 
nursing homes that the select committee has requested and also 
here, from CMS
    [inaudible] health and safety regulations and put this 
talking point to rest, while Americans are dying, Republicans 
and Democrats.
    So, Admiral Giroir, an April HHS whistleblower complaint by 
Dr. Bright alleges that he was pressured to award contracts 
based on political connections to the Trump administration and 
his family. Doesn't it concern you that there are reports of 
contracts that prioritize political connections to the Trump 
administration over science and the safety of the American 
people?
    Mr. Giroir. Thank you, ma'am.
    I don't have any knowledge of any contract that had a 
priority other than science and what was right for the American 
people.
    Ms. Velazquez. And did you read the article in The New York 
Times?
    Mr. Giroir. I'm sorry? Did I read what article?
    Ms. Velazquez. Rick Bright, does he exist, Dr. Bright? Does 
he file a complaint?
    Mr. Giroir. Yes, ma'am, I know Dr. Bright. I'm sorry. I 
really am sorry. It's hard to hear the question, ma'am. I 
really do apologize. I'm trying to answer, but could you maybe 
repeat that?
    Ms. Velazquez. Is he a real person, Dr. Bright?
    Mr. Clyburn. She's asking is he a real person, I think she 
said.
    Mr. Giroir. Is he a real person? Yes, I know Dr. Bright.
    Ms. Velazquez. OK. And did you read the article in The New 
York Times?
    Mr. Giroir. No, I don't read The New York Times.
    Ms. Velazquez. Oh, OK.
    Mr. Giroir. I just don't. I'm too busy doing what I'm 
doing. I'm happy to answer a question, but I don't routinely 
read The New York Times.
    Ms. Velazquez. Sir, you don't read an article that I'm sure 
your staff brought up to you based on the fact that Dr. Bright 
raised a complaint as a whistleblower about behavior from the 
Trump administration----
    Mr. Giroir. Right.
    Ms. Velazquez [continuing]. Prioritizing political 
connections.
    Mr. Giroir. So----
    Ms. Velazquez. And let me ask you----
    Mr. Giroir. I'm just saying the Department takes every 
whistleblower complaint seriously. I know it's being 
investigated by the Secretary. I don't have any knowledge of 
any pressure on Dr. Bright.
    Ms. Velazquez. And after that complaint and discussion in 
the media on political connections, have--what steps have you 
taken to make sure that there is a level playing field in the 
Federal marketplace so that everyone has the opportunity to 
compete based on experience and the products and services that 
they can deliver at a time when so many Americans are dying?
    Mr. Giroir. I certainly agree with your premise, ma'am. We 
always do everything possible to make sure we have as fair 
procedures as possible, and I'm sure the complaints by Dr. 
Bright are being investigated through our general counsel, 
according to, and I know the Secretary takes every 
whistleblower complaint seriously, as I would. I'm just not 
involved with Dr. Bright on that level.
    Mr. Clyburn. The gentlelady's time has expired.
    Let me be clear with your answer. You know Dr. Bright, and 
you are familiar with this allegation.
    Mr. Giroir. Yes, sir, of course.
    Mr. Clyburn. And you say it is being investigated.
    Mr. Giroir. I'm not investigating it, but the Secretary has 
put out statements that he takes whistleblower complaints very 
seriously. I know that's the attitude of the Department, and it 
is being investigated by the normal channels.
    Mr. Clyburn. Very good.
    Mr. Giroir. Yes, sir.
    Mr. Clyburn. Thank you very much.
    The chair now recognizes Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    I appreciate our witnesses that are here today, and I want 
to extend so much appreciation for my district in Indiana for 
the services of all of our witness here today. You three guys 
face an impossible task. China and the WHO lied about the 
extent of the crisis, and it's well documented that China used 
that time to hoard PPE that was vital to this country. To make 
matters worse, the Obama Administration name depleted the N95 
mask from the Strategic National Stockpile during the 2009 H1N1 
influenza outbreak and never replenished it. The odds were 
against you guys from the very beginning.
    Then you had a national media super eager to paint the 
worst possible picture. So, for instance, The New York Times 
published an article on March 25 that said: Amid desperate need 
for ventilators, calls grow for Federal investigation, which 
said that the U.S. needed as many as 1 million ventilators to 
adequately respond to the pandemic. We only had 200,000 
thousand available.
    Admiral Polowczyk, did the U.S. really need 1 million 
ventilators?
    Mr. Giroir. Maybe I'll answer that. As an intensive care 
physician, I was incredibly involved early on with the 
allocation of every single ventilator, every single request. 
No, we did not need a million ventilators. And we did not need 
40,000.
    Mrs. Walorski. In fact, The New York Times article 
mischaracterized the study by the Society of Critical Care 
Medicine, which estimated that, over the course of the 
pandemic, as many as 1 million people could require ventilator 
treatment. That's a huge difference from needing 1 million 
ventilators. Whether this was an honest mistake or not, such an 
eye-popping number got a ton of attention. The figure was used 
in a second New York Times article, repeated by the other news 
outlets, and rocketed around Twitter and Facebook. A New York 
Times reporter tweeted the incorrect figure and then said the 
Trump administration was dooming people to die. It was 
retweeted 471 times. He eventually tweeted a correction three 
days later. The correction was retweeted just 15 times, and he 
didn't even delete the original incorrect, apocalyptic tweet.
    This is malpractice in the service of an agenda in service 
of creating a narrative at whatever cost. Frankly, this reminds 
me of the Russia collusion hoax that was a hoax we saw play out 
over the last few years: Report breathlessly an alarming 
report, and by the story falls apart and has been disproven, 
everyone's moved to the next outrage.
    Mr. Giroir. Let me just say that during that time, we had 
the president of the Society of Critical Care Medicine at FEMA 
working with us to understand specifically what the ventilators 
need was. My group put out guidance on how to dually ventilate 
people, along with the American Society of Anesthesiology, who 
had been working on transition of anesthesia machines. So, we 
were involved. Every single ventilator decision went to the UCG 
to weigh the needs. And as far as we know, not a single person 
in this country was denied ventilation. And now because of the 
DPA use, we'll have over 50,000 ventilators in the stockpile by 
next week.
    Mrs. Walorski. Thank you.
    And just curious. How many ventilators did New York end up 
receiving?
    Mr. Polowczyk. Ma'am, I do not have the actual specific 
number, but I know that it was first they asks asked for tens 
of thousands which I think that number might have been 30 or 
40, but we--New York ended up getting maybe about 10,000 
ventilators. But I will need to provide the committee with the 
actual specific numbers, if I could, but the initial thought 
was a lot, but they got less than that.
    Mrs. Walorski. And, Admiral Polowczyk, again, you created a 
control tower to monitor medical supplies and demand. What's 
the status of the control tower on the role of the Federal 
Government and the Strategic National Stockpile and obtaining 
and distributing medical supplies to the states?
    Mr. Polowczyk. Ma'am, so we've got information from 
essentially 90-plus percent of the health medical supply chain. 
I can see it coming in from manufacturing, whether it be U.S. 
or overseas, be it in the warehouses and distributed down to 
first responders, nursing homes, hospitals. We're also in the 
process of building that out, getting actual wired connections 
to the 6,800-plus hospitals in the United States, to get on 
hands daily information, along with adding state warehouses to 
this. So, you'll have a holistic approach and understanding of 
the supply chain from states, hospitals, national stockpile, 
and from the commercial side.
    Mrs. Walorski. And I just want to say that, when President 
Trump enacted the Defense Production Act, the state of Indiana 
got on board immediately, even in my district, and we are still 
producing domestically supplied PPE today. Thank you for your 
service, gentlemen.
    I yield back, Mr. Chairman.
    Mr. Clyburn. I thank the gentlelady for yielding back.
    The chair now recognizes Mr. Foster.
    Mr. Foster. Thank you, Mr. Chair, and thank you to our 
witnesses for their service.
    I'd like to first ask unanimous consent to enter into the 
record a letter from the DuPage County Health Department, a 
county in my district, outlining their experience attempting to 
get adequate PPE and testing supplies. And so to summarize it, 
they attested that the lack of appropriate personal protective 
equipment and medical testing supplies had seriously hampered 
the ability to control the spread of SARS-CoV-2.
    Mr. Foster. So, this is--so I understand pursuant to 
committee rules, it's being transmitted electronically to the 
staff and all members, and we have copies here for anyone.
    But they have numbers here on what they requested versus 
what they got: N95 masks, 1.6 percent of what they requested; 
gowns, 1.6 percent; eye protection, 1.4 percent; and on and on. 
And, you know, as they say, this has caused additional, many 
additional cases and hampered their spread and so I just--you 
know, it's not entirely a good news story here.
    I think it strikes me that the biggest thing that you're 
facing here is that we've seen a resumption in the exponential 
growth of COVID cases. We're seeing nationwide doubling of time 
of about two weeks. We're seeing hotspots in sunbelt states. 
We're seeing several days' doubling time.
    And so my question, I guess, starting with Rear Admiral 
Polowczyk, how many more doublings can you tolerate before a 
supply chain breaks?
    Mr. Polowczyk. I'm going to answer you with not a direct 
answer to the doubling because I'm not a medical professional, 
and I'm not----
    Mr. Foster. You understand the demand. It doubles and 
double and doubles.
    Mr. Polowczyk. Yes, sir, I get that.
    Again, states in my conversations, in my understanding, in 
my work with every state, every regional manager and our large 
hospital systems, most, 70-some-odd, going on 75 percent, have 
at least 30 to 60 days of supplies on hand.
    Mr. Foster. Right. And what does that do if the demand 
doubles and doubles and doubles again? I mean, it seems like 
that in less than 30 days, we're going to have a huge crisis, 
unless we start seeing, you know, real self-control on this.
    There's also, Admiral Giroir, you know, you can see you've 
done a great job on increasing testing capacity, but it's 
linear. You know, you've sort of linearly, a little bit less 
than linearly sometimes, increased the testing capacity. This 
can't keep up with an exponential growth in the testing 
capacity. Do you see any way to keep up with demand that 
doubles and doubles and doubles again?
    Mr. Giroir. Yes. Thank you, Congressman.
    So, my job is to make as many tests available as possible, 
as quickly as possible, get them to the right people. There are 
strategies. Again, we're a little bit linear, but we're going 
to get a little bit more exponential as supply chains kick in 
for some of the point-of-care tests, but we're exploring 
different opportunities, and you know that, about pooling of 
tests, particularly with surveillance.
    Mr. Foster. Yes, but the pooling breaks if you have a high 
enough fraction of people infected where every single pool has 
multiple positive samples in it.
    Mr. Giroir. That's not the case in most places. That would 
be used in low-prevalence surveillance.
    Mr. Foster. OK. So, let's see. I'd like to move to antibody 
testing for a moment here. You know, in the Families First 
Coronavirus Response package, Congress directed the COVID-19 to 
be done at no cost to the patient. Now we worked very hard, our 
staff worked. We got language from HHS to make sure that that 
was true. And now I am hearing, you know, in my state that HHS 
is walking this back on in terms of reimbursements. And are 
you--are you willing to commit that HHS will continue to do the 
reimbursements necessary to make sure that this will--antibody 
testing will take place at no cost to the patient?
    Mr. Giroir. I'm not trying to avoid this. I'm not a person 
who could commit on the reimbursement side, but I can tell you 
that it is clearly our intention, the Secretary's intention, 
that diagnostic testing, testing that is done in the context of 
screening and the antibody tests that it is in are at no charge 
to individuals, and we want to work to that yes, sir.
    Mr. Foster. OK. If you find out that's not true, please get 
back----
    Mr. Giroir. I actually haven't heard that being an issue, 
but I'll investigate that and take it for action.
    Mr. Foster. No, no, it's very important because especially 
in light of the President's statements that he wants to slow 
down testing, something he's confirmed multiple times. One 
technique that he may be using is to charge people money for 
something that should be free, and slowing down testing is not 
what we need right now.
    Thank you, and my time's up, and I yield back.
    Mr. Clyburn. I thank you very much, Mr. Foster.
    The chair now recognizes Mr. Green.
    Mr. Green. Thank you, Chairman and Ranking Member Scalise.
    I want to thank our witnesses for being here today and for 
their lives of service to this great country. It's true we're 
seeing an increase in positive COVID-19 cases. The United 
States is testing more people than any other country, over 35 
million thus far with 637,000 on June 25 alone, the most recent 
data available. The Trump administration has also successfully 
procured millions of PPE, including through aggressive 
utilization of the Defense Production Act, as you guys have all 
mentioned today.
    As of June 26, the efforts on the part of FEMA, HHS, and 
the private sector have led to the delivery of the following: 
167.1 million N95 respirators, 682.5 million surgical masks, 
27.3 million face shields, 299.2 million surgical gowns and 
coveralls, and 17.1 billion gloves.
    And as far as ventilators go, the administration has 
assured thus far that we have more than enough, so much so that 
numerous states are returning their ventilators to the 
Strategic National Stockpile. Washington State returned 400, 
California, 500.
    But instead of working with the President to help 
Americans, my colleagues across the aisle would rather 
politicize this public health crisis. In one sentence, the 
majority's leadership said, quote, we're not here to place 
blame, end quote, and then the very next sentence they bashed 
the President, suggesting his culpability in the deaths of 
Americans. I mean, that happened just today.
    We can't have a true assessment of our response because 
this hyperpolarized environment makes every single action a 
political failure. We've got to get past this in our country if 
we're to come through this.
    Additionally, President Trump has had an all-hands-on-deck 
mentality to develop the COVID-19 vaccine. Historically, it 
takes an average of 10 to 15 years to develop a vaccine. It's a 
multistep process that takes decades. Dr. Fauci has stated that 
we should have a couple hundred million doses of COVID-19 
vaccines by the beginning of 2021. This is an incredible feat. 
It took 42 years to develop a vaccine for chicken pox, 43 for 
Ebola, 47 for a Polio vaccine.
    So, how are we moving so fast that public health experts 
think we can have a vaccine in 12 months? For one, we're 
conducting multiple phases and tests simultaneously rather than 
one at a time, which greatly increases the speed of development 
but also increases the manpower and the expense. And thankfully 
President Trump has devoted the full resources of the Federal 
Government to this crucial endeavor.
    Additionally, the Wall Street Journal has noted a 
combination of other improvements, such as enhancement of 
sequencing advancements in bioengineering techniques and 
unprecedented government support. Let me emphasize that last 
point again. The Journal notes, and I quote, unprecedented 
government support, end quote, is a primary cause of the 
breakneck speed of development of the vaccine.
    While some prefer to sit on the sidelines and attack the 
administration, President Trump has been boldly acting to help 
find a cure. He launched Operation Warp Speed aimed at 
developing a vaccine by the end of the year. He selected five 
coronavirus candidates as finalists, pledged future COVID 
vaccines will be free for vulnerable Americans, prodded top 
health officials to speed up development, and streamlined FDA 
approval processes and requirements.
    This administration's response has been unprecedented. The 
committee, this committee, on the other hand, Mr. Chairman, we 
still haven't held a single hearing or briefing on China's 
responsibility for COVID-19, not one. According to Columbia 
University, not necessarily a bastion of conservatism, I might 
add, and reported by ABC News, certainly not a Republican news 
organization, had China notified America just one week sooner, 
Columbia University predicts 60.1 percent of American 
casualties could have been avoided, meaning China's deception 
resulted in 60 percent of our casualties.
    Have we spent 60 percent of our time looking into China's 
actions? Aren't we the task force designed to look into the 
cause of American deaths due to COVID? Have we on this 
committee spent 50 percent of our time looking into China's 
failure and deception? They're 60 percent of our casualties, 
according to Columbia University. We haven't spent a single 
minute investigating what the scientists at Columbia University 
said potentially killed 60 percent of our deaths. That is a 
failure of this committee. Yet all the other side want to do is 
point the finger at President Trump. That's sad.
    Thank you, Mr. Chairman. I yield.
    Mr. Clyburn. I thank the gentleman for yielding back.
    The chair now recognizes Mr. Raskin.
    Mr. Raskin. Mr. Chairman, thank you.
    And, witnesses, thank you for your service to our country.
    Mr. Chairman, I continue to be impressed by the bottomless 
reservoirs of counterfeit outrage and self-righteousness 
summoned up by the President's defenders, who are complaining 
over absolute nonsense like imaginary hoaxes, imaginary 
constitutional offenses, and, of course, the imaginary 
repression of the President's quack miracle cures, which have 
been proven to be a danger to our people.
    But let's return back to reality. Let's come back to 
America where our people are suffering. According to The New 
York Times, new cases are up 80 percent in the last two weeks. 
We're seeing a startling rise in coronavirus cases in many of 
our southern and western states including Florida, Texas, 
Arkansas, Alabama, Arizona, Oklahoma, and many others, 35 
states where the virus is now on the rise.
    Yesterday, the United States shattered all records with new 
cases reported in a single day, reaching nearly 50,000. There 
were more than 800,000 new cases reported in June alone, and 
Dr. Fauci says we are on course to hit 100,000 cases per day. 
That is terrifying.
    Now since the pandemic began, the Trump administration has 
insisted upon having no plan. It's up to the states. It's a 
helter skelter ragtag operation. The Trump administration has 
made only limited and sporadic use of the Defense Production 
Act and has mostly relied on the private sector to procure 
supplies, often from China and other foreign suppliers and the 
same foreign suppliers to be distributing the supplies.
    And we know President Trump, contrary to this mad scramble 
to distance him from China, we heard that President Trump 
praised the performance of the Chinese Government and President 
Xi 37 different times in January, February, March, and April, 
praising General Xi's good, very good, great performance and 
his relationship with them, the extraordinary deals that are 
working together. And if Republicans want to go down that road 
instead of working to address the needs of people, I'm very 
happy to do it because it will lead into total disgrace and 
embarrassment of their arguments and their attempts to blame 
China for this whole situation. And if China covered up at the 
beginning, which I think it did, President Trump covered up for 
China in the process. That's the relationship.
    Now, Rear Admiral Polowczyk, I want to ask you questions 
about demand and supply. You said that the demand for masks may 
be inflated because some industries think that they need them 
when they don't actually need them, and I want to make sure I 
heard you right there. I think you invoked janitorial services 
as one of those. Do janitors and custodial crews like the ones 
that are going to clean the Rayburn, the House Office Building 
this evening, do they not need masks?
    Mr. Polowczyk. Sir, there's several standards of masks. 
Right? So, I was referring to medical grade. Those would be 
covered under NIOSH, and so they are a different standard of 
mask. So, I'm not saying that they don't need a mask. I'm just 
saying there's different standards of mask.
    Mr. Raskin. OK. So, let me go to a question of supply then. 
Then this goes to the question I think Ms. Waters was asking 
you. You said that you're not certain about what the nationwide 
supply of PPEs is and that might be understated because you 
don't know how much PPE and how many masks the states are 
actually in possession of.
    Can you just explain why you don't have that figure, why 
you don't know that, and will we ever come to a place where we 
actually have a coordinated national strategy to get Americans 
the equipment that they need?
    Mr. Polowczyk. There is a coordinated national strategy. 
And so the states are working with me to give them--give me 
their warehouse information data as we work through this. And 
if you had heard any of my other answers, the supply chain 
information, you can't run a supply chain without information, 
without data. So, the first thing I did was I brought in all 
the business systems for 90 percent of the healthcare supply 
chain. So, I've aggregated that at FEMA the data--brought in an 
information tool from DOD, and I can see----
    Mr. Raskin. My time----
    Mr. Polowczyk. It's all part of the answer.
    And so adding the state warehouses, adding the hospital 
information, and so Health and Human Services and FEMA are 
going to have the entire ecosystem of understanding supply and 
demand across the Nation.
    Mr. Raskin. OK. And, finally, given the explosive demand 
for PPE right now, because of the pandemic out of control, 
should we not be using the Defense Production Act more 
comprehensively and expansively right now to increase the 
supply for the crisis that's coming?
    Mr. Polowczyk. Sir, Mr. Fahey may be able to comment on 
this, but there are multiple areas under development to expand 
production, whether it be pharmaceuticals, whether it be more 
cloth and non-molding fabric for surgical masks, whether it be 
other--nitrile gloves, et cetera. So, of all those take time 
and investment, decision criteria. But Mr. Fahey may be able to 
answer the question about the robustness of that answer.
    Mr. Raskin. Mr. Fahey, can you answer?
    And I'll yield back after that, Mr. Chairman.
    Mr. Fahey. Yes, sir. We have many efforts going on. As the 
Admiral talked about, I mean, we think we're pretty good on the 
medical mask perspective, but in every other category, the 
process goes that we have an extensive process where we go out 
and we ask industry what they're willing to do and making sure 
they understand our requirements and for the other pieces of 
the equipment, we've done it a lot on masks. We've done it on 
ventilators.
    The other thing we don't mention a lot is a lot of times 
the supply chain is bottlenecked as a subcontractor. So, we're 
looking at the subcontractor. So, we have efforts in every line 
of effort from a PPE medical equipment to expend the domestic 
capacity here in the U.S.
    Mr. Clyburn. I thank you very much. The gentleman's time 
has expired.
    The chair now recognizes Mr. Kim.
    Mr. Kim. Thank you all for coming here.
    Admiral Giroir, I wanted to start with you. I wanted to ask 
you, do you assess that we have successfully flattened the 
curve in the United States?
    Mr. Giroir. Let me give you two tenses. No. 1, we did 
flatten the curve during the time to flatten the curve because 
we expected a lot more cases. Right now, as you know, the case 
numbers are going up.
    Mr. Kim. So, are we flattening the curve right now?
    Mr. Giroir. We are not flattening the curve right now. The 
curve is still going up.
    Mr. Kim. Do you think we're headed in the right direction?
    Mr. Giroir. Right now? And I try to nuance this a little 
bit. In many counties, we are. In many states, we are. In many 
states, we aren't. As you know, four states are accounting for 
about 50 percent of our new cases, and they're very concerning 
to all in public health.
    Mr. Kim. With those states with increased cases, I often 
hear and have heard my colleagues here say this last time 
around that the increase in the positive cases is due to 
increased testing. In your professional expert assessment, does 
that account for the increase that we're seeing in those 
states?
    Mr. Giroir. There is no question that the more testing you 
get, the more you will uncover. But we do believe this is a 
real increase in cases because the percent of positives are 
going up. So, this is real increases in cases.
    Mr. Kim. You said today that you think we should be looking 
at the guidelines of the Opening Up America. I was just looking 
it up here. It said to satisfy before proceeding to phased 
comeback, it said: The cases, downward trajectory, documented 
cases within a 14-day period, or downward trajectory of 
positive tests as a percent of the total tests within a 14-day 
period.
    Do you know how many states are fulfilling this standard 
right now?
    Mr. Giroir. So, right now, there's a lot of movement in the 
system, as you know. Some have drawn back certain activities, 
and some have kept going. I do want to make the statement, if 
you will let me, is that what we're really seeing, we have seen 
states reopen quickly and have had no cases. We've seen states 
not reopen and have a lot of cases. We really do believe the 
current outbreak is primarily due to under 35s with a lot of 
gatherings, not appropriate protection like masks. Yes, it's 
important to reopen, and we believe in the guidelines, but I 
think the weight of the evidence is guidelines are not--you 
know, the personal responsibility is really key right now.
    Mr. Kim. Sure absolutely, what we're seeing is increased 
positive cases that you're talking about that is exceeding what 
we see in terms of our increase in testing. We all know that we 
want to continue to have more testing available.
    Mr. Giroir. Of course.
    Mr. Kim. So, I understand your written testimony that there 
is a company that is producing more than 10 million laboratory 
testing extraction and PCR kits per month, enabling states to 
complete millions of additional tests.
    Mr. Giroir. Right.
    Mr. Kim. However, I also understand that the contract that 
you highlighted expires in five days. So, I want to ask you, 
can you commit to this committee today that there will not be a 
reduction in that testing capacity?
    Mr. Giroir. There is not going to be a reduction in testing 
capacity. So, the contractor you're talking about, we had 
initially acquired, we acquired very few laboratory reagents, 
but we did acquire that because the states were not accustomed 
to using many of them this one company. And what we're seeing 
right now is we want--we think the market is stable enough. 
You've got $10.25 billion into the states that the states will 
buy that from that specific company. But we did, because the 
states--when I say the states, it is laboratories in the states 
were not as accustomed to using this type of test with this 
type of machine----
    Mr. Kim. Yes.
    Mr. Giroir [continuing]. That we did sort of cede that by 
buying it federally and distributing it.
    Mr. Kim. Two questions left for you, my home state of New 
Jersey was hit particularly hard by the virus, and in March and 
April we were really struggling and very few tests available. 
We tried to seek additional HHS-backed, FEMA-backed, federally 
backed test sites. We had two in New Jersey, we were trying to 
get more, and we were told that that request was denied, and 
that no more Federal test sites will be stood up in our country 
in the beginning of April. I just wanted to learn from you who 
made that decision? And can you tell me how that decision was 
made not to have any more federally backed test sites?
    Mr. Giroir. So, I think that's not true, because we started 
41 completely federally run sites, but the plan had always been 
to transition those. So, we have 624 federally sponsored, 
retail pharmacy sites now, because 41 drive-throughs is run----
    Mr. Kim. I get that, that was not until May that those were 
stood up.
    Mr. Giroir. No, that's not true.
    Mr. Kim. OK. I would love it, if you don't mind, we can 
take for the record, and you get back to me with that timeline. 
That would be really helpful.
    Just the last question here, I just want to clarify your 
position regarding the World Health Organization since you 
mentioned this earlier today. You said reforms are needed. We 
get that. You also mention that you were confirmed by the 
Senate, and I was looking it up that it was in May to be the 
U.S. Representative on the executive board of the World Health 
Organization.
    So, I wanted to ask you, was it your recommendation that 
the United States terminate our relationship with the WHO 
during the middle of a pandemic?
    Mr. Giroir. I was not asked for a recommendation.
    Mr. Kim. So, when President Trump made that decision later 
in that month, after you were sworn in as the U.S. 
Representative to the executive board of the WHO, he did not 
seek your advice or your consideration before he made that 
decision. Is that what you're saying?
    Mr. Giroir. I have not provided a recommendation to anyone, 
correct.
    Mr. Kim. OK. Thank you. Mr. Chairman, back to you.
    Mr. Clyburn. Thank you very much. Let me thank all the 
witnesses for their appearances here today. I have always opted 
to yield to the ranking member for any closing comments. And in 
his absence, I will yield that to Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman. I would just point out 
that, you know, in the last comments from majority side, that 
the World Health Organization lied to us. So, I think the 
President took a pretty commonsense position. He said, we don't 
have to pay organizations to lie to us, they'll probably do it 
for free. But I want to thank our witnesses for being here 
today, even though you had to have one member of the minority 
say that you were missing in action, which I find amazing, an 
officer of the United States Navy missing in action, I find it 
amazing they would say such a thing.
    You had another, give more credence to a New York Times 
article than the word of an admiral in the United States Navy. 
But we on the minority side appreciate your service to our 
country and your service in this critical time. We also 
appreciate what the Attorney General of the United States said 
two months ago, when he said the Constitution is not suspended 
during a crisis. And amen to that.
    Unfortunately, as we've talked about here over the last 
couple of hours, I don't know that certain mayors, and 
certainly Governors, appreciate that fact. At least they have 
not--at a minimum, they have not appreciated that fact in a 
consistent fashion. They have a different set of rules for 
protests.
    I understand peaceful protest is fundamental to the First 
Amendment, fundamental to American way of life. And I support 
it and I have engaged in it. But there is a big difference 
between peaceful protest and some of the things we have seen in 
the streets of our great country and our great cities over the 
last several weeks.
    But peaceful protest is important, but so is your ability 
to practice your faith, exercise your religious liberty rights 
under the First Amendment, so is your ability to engage in our 
livelily and operate your business, so is your ability to 
attend a loved one's funeral.
    So we, I think, would appreciate some--a little more 
consistent application of the Constitution in our First 
Amendment liberties by some of the Democrat mayors and 
Governors around the country. And what we would also 
appreciate, Mr. Chairman, and we have raised this issue now 
several times, the gentleman from Tennessee brought it up, you 
talk about this committee looking forward dealing with this 
tough time and this crisis that we're in. But sometimes to 
properly handle, and address things, and look forward, you need 
to understand what happened.
    And two big things that have happened: We talked about if 
China had told us earlier, lots more people would be alive 
today in our country and around the world. For some reason, the 
majority doesn't want to look at that fundamental issue. And 
just as importantly, decisions made by certain Governors--40 
percent of the death in this country happened in nursing homes, 
and decisions made by Governors in five states that would, in 
hindsight, frankly I don't even know of any hindsight, that 
were just ridiculous wrong decisions cost of the lives of so 
many thousands, thousands of our fellow citizens.
    And so, at some point, we would, as I said earlier, as the 
ranking member said numerous times, we would like to get this 
information, particularly from the Governor of New York on this 
decision to put COVID positive people back into nursing homes 
for 46 straight days. And why the majority won't help us get 
that information, for the life of me, I can't figure out.
    That's where we need to go. We do need to understand some 
things that happened in the past so we can be forward-looking 
and help our country deal with this issue.
    With that, Mr. Chairman, I would yield back.
    Mr. Clyburn. I thank the gentleman. And I thank all of the 
witnesses today for their participation and the members of the 
subcommittee.
    I want to--without objection, I would like to enter Mr. 
Foster's request with unanimous consent for the letter to be 
inserted into the record. And I'm ordering that that be done. I 
would also like to enter into the record four letters this 
committee has received in recent days from organizations 
representing healthcare institutions and workers: The American 
Medical Association; the American College of Emergency 
Physicians; National Nurses United; and the American 
Association of Medical Colleges.
    Mr. Clyburn. Each of these groups has written to emphasize 
that healthcare workers around the country are still 
experiencing shortages of critical supplies, including masks. I 
ask unanimous consent that these letters be entered into the 
official hearing record. It is so ordered.
    In closing, I want to thank the witnesses and my colleagues 
on this select subcommittee. Today's hearing made clear that as 
coronavirus infections and hospitalizations spiked around the 
country, communities are facing alarming shortages of Personnel 
Protective Equipment and testing supplies. We need urgent 
action from the Federal Government to address these shortages 
now before more people are exposed and the virus spins further 
out of control. There are clear and tangible steps the Federal 
Government can take.
    First, we need a clear chain of command so the Federal 
Government can make efficient use of its vast resources and 
career professionals to identify the need and procure and 
distribute supplies.
    Second, the administration needs to adhere to rigorous 
contracting practices, including open competition to make sure 
it is not favoring inexperienced, politically connected 
suppliers over businesses with a track record of success.
    Third, the Federal Government must establish a 
comprehensive plan to directly procure and distribute critical 
supplies rather than continuing to defer to the private sector. 
I cannot emphasize this enough. Our Federal Government has the 
resources, the manpower, and the legal authority under the 
Defense Production Act to procure the necessary supplies and 
quickly get them to the communities that need them. It's time 
we use them.
    I appreciate the hard work of each of our witnesses and 
their colleagues at FEMA, the Department of Defense, and Health 
and Human Services, but to ensure this problem gets fixed, we 
need you to keep Congress apprised of your progress. I am, 
therefore, calling on FEMA, HHS, and DOD to provide this 
committee with biweekly updates on the projected supply and 
demand for PPE and testing supplies. I look forward to 
continuing to work with each of you to ensure that our 
government is working to help all of Americans during this 
national crisis.
    With that, this meeting is adjourned.
    [Whereupon, at 11:19 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
